           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


  AGED BENEFICIARIES WHOSE BENEFITS
   HAVE BEEN SUSPENDED FOR ADDRESS
      OR WHEREABOUTS UNKNOWN


       June 2011   A-09-09-29117




AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

    Conduct and supervise independent and objective audits and
       investigations relating to agency programs and operations.
      Promote economy, effectiveness, and efficiency within the agency.
      Prevent and detect fraud, waste, and abuse in agency programs and
       operations.
      Review and make recommendations regarding existing and proposed
       legislation and regulations relating to agency programs and operations.
      Keep the agency head and the Congress fully and currently informed of
       problems in agency programs and operations.

   To ensure objectivity, the IG Act empowers the IG with:

    Independence to determine what reviews to perform.
    Access to all information necessary for the reviews.
    Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                              SOCIAL SECURITY
MEMORANDUM

Date:      June 17, 2011                                                        Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Aged Beneficiaries Whose Benefits Have Been Suspended for Address or Whereabouts
           Unknown (A-09-09-29117)


           OBJECTIVE
           Our objective was to determine whether the Social Security Administration (SSA) had
           taken appropriate actions for Title II beneficiaries over age 70 whose benefits were
           suspended for address, whereabouts unknown, or miscellaneous reasons.

           BACKGROUND
           SSA administers the Old-Age, Survivors and Disability Insurance program under
           Title II of the Social Security Act. 1 This program provides monthly benefits to retired or
           disabled workers, their families, and survivors of deceased workers. SSA may suspend
           benefits when it receives a third-party report that a beneficiary is missing, when checks
           are returned because they are undeliverable, or for other miscellaneous reasons. For
           beneficiaries living outside the United States, SSA may also suspend benefits when a
           foreign enforcement questionnaire (FEQ) is not returned. 2 In such instances, SSA must
           make a reasonable effort to locate the beneficiary.

           SSA policy states that when a beneficiary’s whereabouts are unknown and benefits
           have been suspended for at least 7 years, SSA will assume the reason the beneficiary
           failed to request payment during the 7-year period is death. SSA uses this presumption
           of death to terminate benefits and prevent benefits from remaining in suspense
           indefinitely. SSA policy also states that terminating entitlement for presumed death
           ensures that suspended payments will not be fraudulently issued to someone other than
           the beneficiary. 3


           1
               The Social Security Act § 201 et seq., 42 U.S.C. § 401 et seq.
           2
               SSA, Program Operations Manual System (POMS), RS 02655.010.
           3
               SSA, POMS, GN 02602.320.F and Social Security Ruling 99-1p.
Page 2 - The Commissioner


According to SSA’s Master Beneficiary Record (MBR), as of January 2009, there
were approximately 38,000 Title II beneficiaries over age 70 whose benefits were
suspended for address, whereabouts unknown, or miscellaneous reasons. This
consisted of approximately 30,000 beneficiaries whose last known address was in
the United States and 8,000 beneficiaries whose last known address was in a foreign
country. According to SSA’s records, none of these beneficiaries had a reported death.

From the population of 38,000 beneficiaries, we reviewed 2 random samples:
(1) 100 beneficiaries whose last known address was in the United States and
(2) 100 beneficiaries whose last known address was in a foreign country.

RESULTS OF REVIEW
SSA had not taken appropriate actions for Title II beneficiaries over age 70 whose
benefits were suspended for address, whereabouts unknown, or miscellaneous
reasons. Specifically, we found that SSA did not (1) terminate beneficiaries in
suspended pay status for longer than 7 years for presumption of death, as required;
(2) take action on beneficiaries who were suspended between 2 and 7 years; and
(3) properly resolve FEQ suspensions for beneficiaries living in foreign countries.
Based on our random samples, we estimate that

•   29,196 beneficiaries whose whereabouts were unknown for longer than 7 years
    had not been terminated based on a presumption of death (24,439 beneficiaries with
    a last known address in the United States and 4,757 beneficiaries with a last known
    address in a foreign country);

•   5,981 beneficiaries had been suspended between 2 and 7 years because their
    whereabouts were unknown (3,017 beneficiaries with a last known address in the
    United States and 2,964 beneficiaries with a last known address in a foreign
    country); and

•   2,964 of the foreign beneficiaries were suspended because they did not return the
    FEQ, and there was no evidence that SSA conducted the required follow-up actions
    to determine their whereabouts or whether they were deceased (see Appendix C).

This occurred because SSA did not have adequate controls and procedures to
(1) identify and terminate beneficiaries who were presumed to be deceased; (2) prevent
the erroneous reinstatement and payment of suspended benefits to someone other than
the beneficiary; and (3) ensure follow-up actions for FEQ suspensions were properly
resolved or documented.
Page 3 - The Commissioner


AGED BENEFICIARIES IN SUSPENDED PAY STATUS

Based on a random sample of 200 beneficiaries, 4 we found 142 (71 percent) had been
in suspended pay status for 7 or more years. In addition, 48 (24 percent) had been
in suspended pay status between 2 and 7 years. For the remaining 10 (5 percent)
beneficiaries, 4 were returned to current pay status, and 6 were terminated for death.
The results of our review are summarized in the following table.

                                                            Domestic         Foreign
                      Description                          Beneficiaries   Beneficiaries 5
    Beneficiaries in Suspense for 7 or More Years               81               61
    Beneficiaries in Suspense for 2 to 7 Years                  10               38
    Beneficiaries Returned to Current Pay Status                  3               1
    Beneficiaries Terminated for Death                            6               0
                         Total                                 100             100

SSA Controls and Procedures for Beneficiary Suspensions

SSA may suspend benefits for address, whereabouts unknown, or miscellaneous
reasons. This suspension action may be based on a third-party report, undeliverable
mail, or benefit checks returned for address or miscellaneous reasons. For a Title II
beneficiary, the suspension is proper when SSA cannot locate the beneficiary and his or
her whereabouts are unknown. When this occurs, SSA will send a notice advising the
beneficiary that benefits will be suspended. SSA employees must attempt to locate the
beneficiary, obtain a correct address, or determine the reason for a returned benefit
check. SSA’s efforts to locate the beneficiary must be documented on the MBR. After
a beneficiary has been suspended for whereabouts unknown for a period of at least
7 continuous years, SSA assumes the beneficiary is deceased and terminates
entitlement to benefits effective the date the beneficiary disappeared unless there is
convincing evidence to establish a more likely date of death. 6

SSA sends an annual or biennial FEQ to all beneficiaries residing outside the United
States. The FEQ verifies that beneficiaries are alive and obtains information regarding
events that may result in suspension, reduction, or termination of benefits. If a
beneficiary does not return the FEQ, benefits are suspended and SSA is required to
investigate the beneficiary’s whereabouts. 7



4
    Includes 100 domestic and 100 foreign beneficiaries.
5
    Includes 19 FEQ suspensions.
6
    SSA, POMS, GN 02602.320, SM 03005.140, and SM 03020.200.
7
    SSA, POMS, RS 02655.001 and RS 02655.010.I.
Page 4 - The Commissioner


SSA has established a number of automated controls to ensure benefit suspensions are
properly resolved. Specifically, SSA generates an alert after 60 days and a follow-up
alert 6 months after the initial alert for any beneficiary who has been suspended for
address reasons.8 If a beneficiary has been suspended for whereabouts unknown, SSA
generates an alert after 60 days and a follow-up alert 12 months after the initial alert if
the conditions still exist. When these alerts are generated, SSA employees should
determine the beneficiary’s whereabouts or whether a more appropriate suspension or
termination applies.9 There are no periodic alerts for beneficiaries suspended because
they did not return the FEQ. Finally, SSA did not have a control in place to identify and
terminate the records of beneficiaries whose whereabouts are unknown and have been
in continuous suspense for longer than 7 years.

Aged Beneficiaries in Suspense for 7 or More Years

Based on a random sample of 200 beneficiaries, 10 we found 142 (71 percent) were
in suspended pay status for 7 or more years. However, SSA had not taken any action
to terminate the entitlement of these beneficiaries. This occurred because SSA
did not have a control to identify and terminate the records of beneficiaries whose
whereabouts were unknown and benefits had been suspended for at least 7 years.
Based on our sample results, we estimate that SSA had not taken action to terminate
29,196 beneficiaries based on a presumption of death (see Appendix C).

Of the 142 beneficiaries who were in suspended pay status for 7 or more years, 81 had
a last known address in the United States and were in suspense for an average of
26 years. The remaining 61 beneficiaries had a last known address in a foreign country
and were in suspense for an average of 17 years. The following chart provides the
number of years the aged beneficiaries remained in suspended pay status.




8
     SSA, POMS, SM 00619.085.
9
     SSA, POMS, SM 00619.090.
10
     Includes 100 domestic and 100 foreign beneficiaries.
Page 5 - The Commissioner




                                       Aged Beneficiaries in Suspended Pay Status
                                              Based on a Random Sample of 200 Beneficiaries

                                  40
        Number of Beneficiaries




                                  35
                                                                                                      Domestic
                                  30
                                                                                                      Foreign
                                  25
                                  20
                                  15
                                  10
                                  5
                                  0
                                       Under 7 Years 7 - 13 Years 14 - 20 Years21 - 27 Years 28 - 34 Years 35 - 41 Years 42 - 48 Years
                                                                   Number of Years in Suspense




We also found the 200 beneficiaries in our sample were, according to SSA’s records,
between the ages of 71 and 129. According to the Gerontology Research Group, as of
November 2009, there were 22 validated individuals who were 110 years or older in the
United States. The oldest validated living centenarian in the United States was
age 114 as of November 2009. 11 However, according to SSA’s records,
32 beneficiaries in our sample were 110 years or older. Of these, 23 beneficiaries were
114 years or older.

For example, SSA suspended benefits to a beneficiary with an incorrect address
in December 1977. After 7 years, the beneficiary had accumulated $20,363 in
suspended benefits. However, SSA did not take action to terminate the beneficiary’s
entitlement to benefits. Instead, the beneficiary remained in suspense while an
additional $134,677 accumulated over the next 25 years. According to SSA’s records,
as of December 2009, the beneficiary was 117 years old. SSA should have terminated
the beneficiary based on a presumption of death to reduce the potential for improper
payments to ineligible individuals.




11
     Gerontology Research Group, Validated Living Supercentenarians, November 2009.
Page 6 - The Commissioner


SSA policy states that when benefits have been suspended for whereabouts unknown
for at least 7 continuous years because an adult individual has been absent or missing
during this period, SSA should assume the reason the beneficiary did not request the
benefits is death. SSA should also terminate entitlement to benefits effective with the
date the adult beneficiary disappeared, unless there is evidence to establish a more
likely date of death. 12

SSA policy states that terminating entitlement for presumed death ensures that
suspended payments will not be fraudulently issued to someone other than the
beneficiary. This is because SSA policy requires a face-to-face interview with the
beneficiary before it can reinstate benefits after an erroneous death termination. 13
However, the reinstatement and payment of suspended benefits does not involve the
same stringent development before release of payment and is more vulnerable to fraud.
By applying the presumption of death policy to terminate entitlement, SSA ensures a
final resolution occurs for those beneficiaries who would otherwise remain in
suspension indefinitely. 14

Finally, in a recent audit, 15 we reported that SSA improperly issued about $2.1 million
in payments to beneficiaries who remained in a suspended payment status for an
extended period. Specifically, we found that approximately 8,200 beneficiaries who,
according to SSA’s records, were between ages 112 and 136 and had not received a
Social Security benefit for at least 30 years were improperly issued a $250 economic
recovery payment. SSA subsequently reported that only one of these beneficiaries was
alive and eligible for the payment. As a result, we recommended, and SSA agreed to
take, appropriate actions to terminate the records of these beneficiaries to prevent
further erroneous payments.




12
     SSA, POMS, GN 02602.320.
13
     Social Security Ruling 99-1p and SSA, POMS, GN 02602.055.
14
     Social Security Ruling 99-1p.
15
  SSA, OIG, Economic Recovery Payments for Social Security and Supplemental Security Income
Beneficiaries (A-09-10-11017), September 2010.
Page 7 - The Commissioner


Aged Beneficiaries in Suspense Between 2 and 7 Years

SSA studies show that suspensions for lack of address are usually resolved within
24 months, and benefits left in suspense for longer than 24 months are rarely
resolved. 16 Given this, we believe the same vulnerability that SSA policy noted for
terminating entitlement based on a presumption of death after 7 years also exists for
beneficiaries in suspense longer than 2 years. These benefits can also be reinstated
and paid without an in-person interview and proof of the beneficiary’s identity. We do
not believe a termination based on a presumption of death is necessary; however, SSA
should establish additional controls before it reinstates benefits to aged beneficiaries
whose whereabouts have been unknown for longer than 2 years.

Based on our random sample of 200 beneficiaries, 17 we determined that 48 (24 percent)
were in suspended pay status between 2 and 7 years. We believe these benefits are at
risk because they could be reinstated and paid without an in-person interview and proof
of the beneficiary’s identity. Based on our sample results, we estimate that
approximately 5,981 beneficiaries have been in suspended pay status between 2 and
7 years (see Appendix C).

Required Follow-up Actions for Beneficiaries Who Did Not Return FEQs

Based on our sample of 100 foreign beneficiaries, we found that 38 (38 percent) were
suspended because they had not returned the FEQ. 18 For these beneficiaries, there
was no evidence that SSA had conducted the required follow-up actions to determine
their whereabouts or whether they were deceased. Based on our sample results, we
estimate that SSA had not taken appropriate follow-up action for 2,964 beneficiaries
who were suspended because they had not returned the FEQ (see Appendix C).

SSA mails an FEQ annually or biennially to beneficiaries living outside the United States
to verify (1) they are still alive and (2) any events have occurred that may affect their
eligibility for benefits. 19 If the FEQ is not returned within 60 days, SSA mails a second
notice to the beneficiary. If there is no response, SSA mails a suspension letter about
6 months after the initial FEQ was mailed. 20




16
     Social Security Ruling 99-1p.
17
     Includes 100 domestic and 100 foreign beneficiaries.
18
   Of these, 19 beneficiaries remained in suspended pay status for over 7 years and should have been
terminated for presumption of death.
19
     SSA, POMS, RS 02655.001.
20
     SSA, POMS, RS 02655.010.
Page 8 - The Commissioner


After SSA suspends benefits, it establishes a 90-day diary to follow up on these
beneficiaries. If the diary expires and SSA has not received an FEQ, it reviews the
beneficiary’s case folder and contacts the appropriate foreign service post or border
field office to locate the missing beneficiary. In addition, SSA notifies the applicable
Federal Benefits Unit (FBU) 21 to investigate the beneficiary’s whereabouts.22 SSA may
also contact local police, clergy, Post Office, or welfare authorities to determine the
beneficiary’s status.

Of the 38 beneficiaries, 21 resided in countries where SSA had an FBU in the American
Embassy or Consulate, and 17 resided in countries where SSA did not have an FBU.
Although SSA stated that FBUs should document their efforts to locate missing foreign
beneficiaries, it could not provide any documentation to support the results of its
investigations into the whereabouts of these beneficiaries. However, since many
beneficiaries were in suspended pay status for an extended period, SSA stated that
some of the documentation may have been archived or destroyed.

For example, SSA suspended benefits to a beneficiary who resided in Canada and
had not returned the FEQ in January 1999. The beneficiary was born in May 1908.
During our review, we found no evidence to indicate SSA had conducted the required
follow-up actions to determine the beneficiary’s whereabouts or whether she was
deceased. In addition, SSA could not provide any documentation to support its efforts
to locate the missing beneficiary. As of December 2009, the beneficiary remained in
suspended pay status and had accumulated $133,391 in suspended benefits.

CONCLUSION AND RECOMMENDATIONS
SSA had not taken appropriate actions for Title II beneficiaries over age 70 whose
benefits were suspended for address, whereabouts unknown, or miscellaneous
reasons. Based on our random samples, we estimate that (1) 29,196 beneficiaries
whose whereabouts were unknown had not been terminated based on a presumption of
death, (2) 5,981 beneficiaries had been suspended between 2 and 7 years because
their whereabouts were unknown, and (3) there was no evidence that SSA conducted
the required follow-up actions for 2,964 foreign beneficiaries who did not return FEQs
(see Appendix C).




21
   SSA provides services to claimants and beneficiaries residing outside the United States through FBUs
located in 34 countries.
22
     SSA, POMS, RS 02655.010.
Page 9 - The Commissioner


We recommend that SSA:

1. Identify and terminate, in accordance with SSA’s presumption of death policy, the
   entitlement of the estimated 29,196 beneficiaries whose whereabouts were unknown
   and have been in suspended pay status for 7 or more years.

2. Ensure suspended beneficiaries whose whereabouts were unknown for longer than
   2 years have their identity and continuing eligibility for benefits validated before
   reinstating benefits.

3. Take appropriate action (including termination of benefits) for the estimated
   2,964 suspended beneficiaries living outside the United States who did not return
   the FEQ.

4. Implement controls to identify beneficiaries in suspense for 7 or more years and
   ensure these beneficiaries are terminated for presumption of death in a timely
   manner.

AGENCY COMMENTS
SSA agreed with all our recommendations. The Agency’s comments are included in
Appendix D.




                                        Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – Sampling Methodology and Results
APPENDIX D – Agency Comments
APPENDIX E – OIG Contacts and Staff Acknowledgments
                                             Appendix A

Acronyms
FBU      Federal Benefits Unit
FEQ      Foreign Enforcement Questionnaire
MBR      Master Beneficiary Record
MEF      Master Earnings File
POMS     Program Operations Manual System
OIG      Office of the Inspector General
SSA      Social Security Administration
U.S.C.   United States Code
                                                                      Appendix B

Scope and Methodology
From the Social Security Administration’s (SSA) Master Beneficiary Record (MBR), we
obtained a data extract of beneficiaries over age 70 who were in suspended pay status
for address, whereabouts unknown, or miscellaneous reasons as of January 2009. We
identified a population of 30,171 domestic beneficiaries and 7,799 foreign beneficiaries.

To accomplish our objective, we

•   reviewed the applicable sections of the Social Security Act and SSA’s Program
    Operations Manual System;

•   interviewed SSA employees from the Offices of the Commissioner and Central
    Operations;

•   selected a random sample of 100 domestic and 100 foreign beneficiaries;

•   reviewed queries from SSA’s MBR, Numident, and Master Earnings File (MEF);

•   referred 38 beneficiaries who had not returned the foreign enforcement
    questionnaire to the Office of International Operations for review; and

•   calculated the amount of suspended benefits and number of months in suspense for
    the beneficiaries in our sample.

We determined the computer-processed data from the MBR and Numident were
sufficiently reliable for our intended use. We conducted tests to determine the
completeness and accuracy of the data. These tests allowed us to assess the reliability
of the data and achieve our audit objective. We did not test SSA’s automated systems
to verify the completeness and accuracy of the MEF. The entity responsible for the
MEF is the Office of Earnings, Enumeration, and Administrative Systems under the
Office of the Deputy Commissioner for Systems.

We performed audit work in Richmond, California, and Baltimore, Maryland, between
April and October 2010. The entities audited were the Offices of Income Security
Programs under the Deputy Commissioner for Retirement and Disability Policy and
International Operations under the Office of the Deputy Commissioner for Operations.




                                           B-1
We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objective. We believe the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objective.




                                          B-2
                                                                      Appendix C

Sampling Methodology and Results
We obtained a data extract from the Social Security Administration’s (SSA) Master
Beneficiary Record of 37,970 beneficiaries over age 70 who were suspended for
address, whereabouts unknown, or miscellaneous reasons as of January 2009. Based
on the data extract, we identified a population of 30,171 beneficiaries with a last known
domestic address and 7,799 beneficiaries with a last known foreign address.

We randomly selected 100 domestic and 100 foreign beneficiaries to determine whether
SSA had taken appropriate actions to resolve their suspensions. We also determined
the number of months the beneficiaries had been in suspended pay status. In addition,
we calculated the amount of accumulated benefits from the first month of suspension to
December 2009.

Aged Domestic Beneficiaries in Suspended Pay Status

Based on a random sample of 100 aged beneficiaries with a domestic address, we
found 81 were in suspended pay status for 7 or more years and should have been
terminated based on a presumption of death. Projecting these results to our population
of 30,171 beneficiaries, we estimate that SSA had not taken action to terminate the
suspended benefits for 24,439 beneficiaries.

We also found 10 domestic beneficiaries were in suspended pay status between
2 and 7 years. Projecting these results to our population of 30,171 beneficiaries, we
estimate that SSA had not taken action to terminate the suspended benefits for
3,017 beneficiaries.

Aged Foreign Beneficiaries in Suspended Pay Status

Based on a random sample of 100 aged beneficiaries with a foreign address, we
found 61 were in suspended pay status for 7 or more years and should have been
terminated based on a presumption of death. Projecting these results to our population
of 7,799 beneficiaries, we estimate that SSA had not taken action to terminate the
suspended benefits for 4,757 beneficiaries.

We also found 38 foreign beneficiaries were in suspended pay status between
2 and 7 years. Projecting these results to our population of 7,799 beneficiaries, we
estimate that SSA had not taken action to terminate the suspended benefits for
2,964 beneficiaries.

In addition, we found 38 foreign beneficiaries were suspended because they had not
returned the foreign enforcement questionnaire. For these beneficiaries, there was no
evidence that SSA had conducted the required follow-up actions to determine their


                                           C-1
whereabouts—or whether they were deceased. Projecting these results to
our population of 7,799 beneficiaries, we estimate that SSA had not taken action to
terminate the suspended benefits for 2,964 beneficiaries. The following tables provide
the details of our sample results and statistical projections.

Table 1 – Population and Sample Size

                                         Number of Domestic                  Number of Foreign
        Description                        Beneficiaries                       Beneficiaries
 Population Size                              30,171                              7,799
 Sample Size                                     100                                100

Table 2 – Beneficiaries in Suspense for 7 or More Years

                                         Number of Domestic                  Number of Foreign
         Description                       Beneficiaries                       Beneficiaries
 Sample Results                                    81                                61
 Point Estimate                               24,439                              4,757
 Projection - Lower Limit                     22,144                              4,084
 Projection - Upper Limit                     26,302                              5,392
 Note: All statistical projections are at the 90-percent confidence level.

Table 3 – Beneficiaries in Suspense Between 2 and 7 Years

                                         Number of Domestic                  Number of Foreign
         Description                       Beneficiaries                       Beneficiaries
 Sample Results                                   10                                 38
 Point Estimate                                3,017                              2,964
 Projection - Lower Limit                      1,670                              2,334
 Projection - Upper Limit                      4,936                              3,636
 Note: All statistical projections are at the 90-percent confidence level

Table 4 – Required Follow-up Actions for Beneficiaries Who Did Not Return
Foreign Enforcement Questionnaires

                                                                      Number of Foreign
                Description                                             Beneficiaries
 Sample Results                                                               38
 Point Estimate                                                            2,964
 Projection - Lower Limit                                                  2,334
 Projection - Upper Limit                                                  3,636
 Note: All statistical projections are at the 90-percent confidence level.




                                                     C-2
                  Appendix D

Agency Comments
                                         SOCIAL SECURITY

MEMORANDUM


Date:      May 24, 2011                                                            Refer To:   S1J-3

To:        Patrick P. O’Carroll, Jr.
           Inspector General

From:      Dean S. Landis /s/
           Deputy Chief of Staff

Subject:   The Office of the Inspector General (OIG) Draft Report, "Aged Beneficiaries Whose Benefits
           Have Been Suspended for Address or Whereabouts Unknown"
           (A-09-09-29117)--INFORMATION

           Thank you for the opportunity to review the draft report. Please see our attached comments.

           Please let me know if we can be of further assistance. You may direct staff inquiries to
           Frances Cord, at (410) 966-5787.

           Attachment




                                                          D-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, “AGED BENEFICIARIES WHOSE BENEFITS HAVE BEEN SUSPENDED
FOR ADDRESS OR WHEREABOUTS UNKNOWN” (A-09-09-29117)

Prior to your audit, we convened a Death Notification Workgroup to research certain cases
where Title II beneficiaries remained in suspension for long periods. We are considering the
workgroup’s recommendations. We recently formed another workgroup, the Title II
Beneficiaries Suspense Status Workgroup, to analyze and provide possible solutions to the issues
you describe in your report.

Recommendation 1

Identify and terminate, in accordance with SSA’s presumption of death policy, the entitlement of
the estimated 29,196 beneficiaries whose whereabouts were unknown and have been in
suspended pay status for 7 or more years.

Response

We agree. We will identify and terminate beneficiaries in this category. Our Title II
Beneficiaries Suspense Workgroup will study other long-term suspense categories and we will
act on its findings and recommendations.

Recommendation 2

Ensure suspended beneficiaries whose whereabouts were unknown for longer than 2 years have
their identity and continuing eligibility for benefits validated before reinstating benefits.

Response

We agree. We will update our policy for reinstating benefits and apply it accordingly.

Recommendation 3

Take appropriate action (including termination of benefits) for the estimated 2,964 suspended
beneficiaries living outside the United States who did not return the FEQ.

Response

We agree.

Recommendation 4

Implement controls to identify beneficiaries in suspense for 7 or more years and ensure these
beneficiaries are terminated for presumption of death in a timely manner.

Response

We agree. As resources permit, we will implement an alert to place these beneficiaries in
terminated status.


                                               D-2
                                                                     Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts

   James J. Klein, Director, San Francisco Audit Division

   Jack H. Trudel, Audit Manager

Acknowledgments

In addition to those named above:

   Daniel Hoy, Senior Auditor

For additional copies of this report, please visit our Website at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Staff Assistant at (410) 965-4518. Refer to Common Identification Number
A-09-09-29117.
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
